HHS/OIG-Audit-"Audit of the Medicaid Drug Rebate Program in the State of Alabama"(A-04-03-06005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of Alabama,"
(A-04-03-06005)
July 30, 2003
Complete
Text of Report is available in PDF format (764 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the Alabama Medicaid Agency (AMA) had established adequate accountability
and internal controls over the Medicaid drug rebate program.
AMA generally followed adequate accounting procedures and had controls over the drug rebate program as required by Federal
rules and regulations.  However, we noted AMA did not:  (1) account for the collection of interest as required
by rebate agreements between the Centers for Medicare and Medicaid Services and the drug manufacturers or (2) establish
write-off criteria for dispute resolution as required by Federal regulations.  The weaknesses occurred because AMA
had not established official written policies and procedures.  AMA officials agreed with our finding on the collection
of interest; however, they did not agree that official policies and procedures were needed.  Also, AMA officials disagreed
with our finding on dispute resolution.